            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION



        SINGLE AUDIT OF THE
       STATE OF CONNECTICUT
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2006

     February 2008   A-77-08-00010




  MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                    SOCIAL SECURITY
MEMORANDUM
Date:   February 13, 2008                                                  Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From:   Inspector General

Subject:Management Advisory Report: Single Audit of the State of Connecticut for the Fiscal
        Year Ended June 30, 2006 (A-77-08-00010)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Connecticut for the Fiscal Year ended June 30, 2006. Our
        objective was to report internal control weaknesses, noncompliance issues, and
        unallowable costs identified in the single audit to SSA for resolution action.

        The Auditors of Public Accounts performed the audit. The Department of Health and
        Human Services’ (HHS) desk review concluded that the audit met Federal
        requirements. In reporting the results of the single audit, we relied entirely on the
        internal control and compliance work performed by the Auditors of Public Accounts and
        the reviews performed by HHS. We conducted our review in accordance with the
        Quality Standards for Inspections issued by the President’s Council on Integrity and
        Efficiency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Connecticut Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. The
        Department of Social Services (DSS) is the Connecticut DDS’ parent agency.
Page 2 – Candace Skurnik

The single audit reported:

   1. Indirect costs were not equitably allocated to Federal awards, including SSA’s
      disability programs in accordance with the relative benefits received (Attachment,
      Pages 1 through 4). DSS responded, in part, that its accounting system coding
      structure does not allow the distribution of costs to all benefiting components
      (Attachment, Pages 4 and 5).

   2. Expenditures were not allocated to Federal and State programs in accordance
      with the federally approved cost allocation plan because of expenditure coding
      problems. As a result, costs were not always allocated to the correct programs
      (Attachment, Pages 6 through 9). DSS responded that it has implemented
      procedures to identify and correct errors in expenditure coding (Attachment,
      Page 10).

We recommend SSA:

   1. Work with DSS to ensure that indirect costs are equitably allocated to the
      Connecticut DDS.

   2. Verify that DSS implemented expenditure coding procedures that will ensure only
      allowable costs are charged to its programs.

Please send copies of the final Audit Clearance Document to Ken Bennett. If you have
any questions contact Ken Bennett at (816) 936-5593.




                                               Patrick P. O’Carroll, Jr.

Attachment
 Attachment
Page 1 of 10
 Attachment
Page 2 of 10
 Attachment
Page 3 of 10
 Attachment
Page 4 of 10
 Attachment
Page 5 of 10
 Attachment
Page 6 of 10
 Attachment
Page 7 of 10
 Attachment
Page 8 of 10
 Attachment
Page 9 of 10
  Attachment
Page 10 of 10
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
